           Office of Inspector General




August 8, 2005

JOHN E. PLATT
MANAGER, SAN DIEGO DISTRICT

SUBJECT: Audit Report – City Letter Carrier Operations – San Diego District
         (Report Number DR-AR-05-014)

This report presents the results of our self-initiated audit of City Letter Carrier
Operations in the San Diego District (Project Number 05YG005DR002). This is the
second in a series of six reports on city letter carrier operations issued under the Value
Proposition Agreement with the vice president, Delivery and Retail, and the Office of
Inspector General’s (OIG) Delivery and Retail directorate. The overall objective was to
assess the management of city letter carrier operations.

Opportunities exist to improve the management of city letter carrier operations in the
district. Specifically:

   •   Delivery facility supervisors and managers did not adequately match workhours
       with workload when approving Postal Service Forms 3996, Carrier – Auxiliary
       Control. We projected the sample results for a total of 53,835 unjustified hours
       over the five-month period May 1 through September 30, 2004. We agreed with
       headquarters and Pacific Area delivery management to unrecoverable costs of
       $1,423,935 and we will report it as such in our Semiannual Report to Congress.

   •   Delivery facility supervisors and managers did not timely view the Delivery
       Operations Information System (DOIS) Reports to manage daily operations.

   •   Delivery facility supervisors and managers did not consistently use the Managed
       Service Points (MSP) base information to monitor carrier performance.

   •   Delivery facility supervisors and managers did not always properly document
       letter carriers’ unauthorized overtime occurrences and take appropriate
       corrective action.

We recommended the manager, San Diego District, direct delivery facility supervisors
and managers to enforce the policy for carriers to properly complete required forms,
instruct supervisors to only authorize time that carriers request, and obtain and use
correct time factors for approving and justifying requests for additional time. In addition,
we recommended the manager require supervisors and managers to use DOIS Reports

   1735 N Lynn St
   Arlington, VA 22209-2020
   (703) 248-2100
   Fax: (703) 248-2256
in a timely manner to manage daily operations. We also recommended the manager
require supervisors and managers to use MSP more effectively and consistently
document unauthorized overtime on required forms and take appropriate corrective
action.

Management agreed with our findings and recommendations and has initiatives
completed and planned addressing the issues in this report. Management’s comments
and our evaluation of these are included in this report.

The OIG considers recommendations 1 and 2 significant and requires OIG concurrence
before closure. The OIG considers the support provided by management detailing
corrective actions taken to be sufficient to close these recommendations.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information please contact Rita Oliver,
Director, Delivery and Retail, or me at (703) 248-2300.

/s/ Mary W. Demory

Mary W. Demory
Deputy Assistant Inspector General
 for Core Operations

Attachments

cc: William P. Galligan
    Ellis A. Burgoyne
    Michael S. Furey
    Alfred Iniguez
    Steven R. Phelps
City Letter Carrier Operations -                                         DR-AR-05-014
 San Diego District




                                   TABLE OF CONTENTS

 Executive Summary                                                            i

 Part I

 Introduction                                                                1

     Background                                                              1
     Objectives, Scope, and Methodology                                      4
     Prior Audit Coverage                                                    5

 Part II

 Audit Results                                                                7

      City Letter Carrier Operations                                         7
      Workhours to Workload Not Adequately Matched                           7
         Unjustified Time                                                    8
         PS Form 3996, Carrier – Auxiliary Control                           9
         Supervisors Authorized Additional Time                              9
         Parcel Counts                                                      10
      Recommendations                                                       11
      Management’s Comments                                                 11
      Evaluation of Management’s Comments                                   12

      Supervisors Did Not Timely View DOIS Reports                          13
      Recommendations                                                       14
      Management’s Comments                                                 14
      Evaluation of Management’s Comments                                   15

      Managed Service Points Base Information                               16
      Recommendations                                                       16
      Management’s Comments                                                 17
      Evaluation of Management’s Comments                                   17

      Unauthorized Time Not Properly Documented                             18
      Recommendation                                                        18
      Management’s Comments                                                 18
      Evaluation of Management’s Comments                                   19

 Appendix A. Summary of 120 “3996 Audits”                                   20

 Appendix B. Projection of “3996 Audit” Results over Five-Month Period      24
City Letter Carrier Operations -                      DR-AR-05-014
 San Diego District




 Appendix C. Technical Documentation                     25

 Appendix D. OIG Calculation of Unrecoverable Costs      26

 Appendix E. Management’s Comments                       27
City Letter Carrier Operations -                                                                DR-AR-05-014
 San Diego District


                                     EXECUTIVE SUMMARY
    Introduction                   This report presents the results of our self-initiated audit of
                                   city letter carrier operations in the San Diego District. The
                                   overall objective was to assess the management of city
                                   letter carrier operations.

    Results in Brief               Opportunities exist to improve the management of city letter
                                   carrier operations in the San Diego District. Specifically:

                                      •   Delivery facility supervisors and managers did not
                                          effectively match workhours with workload. This
                                          occurred primarily because carriers did not always
                                          submit Postal Service (PS) Form 3996, Carrier –
                                          Auxiliary Control, to document their requests for
                                          additional time. As a result, we projected the
                                          six delivery facilities had 10,094 unjustified hours that
                                          were not supported by volume or workload from
                                          May 1 through September 30, 2004. We projected
                                          the sample results to all 32 similarly sized delivery
                                          facilities in the district for a total of 53,835 unjustified
                                          hours. We agreed to unrecoverable costs of
                                          50 percent1 of the total variance in the Web Enabled
                                          Enterprise Information System, which amounts to
                                          $1,423,935.

                                      •   Supervisors and managers did not always timely
                                          view the Delivery Operations Information System
                                          (DOIS) Reports such as the Workload Status,
                                          Route/Carrier Daily Performance, and Managed
                                          Service Points (MSP) Overview Reports to manage
                                          daily operations effectively. This occurred because
                                          supervisors relied on their personal experience and
                                          placed less emphasis on the DOIS Reports because
                                          the time variances were occurring with carriers’ office
                                          activities and not with street delivery.

                                      •   Supervisors and managers did not consistently use
                                          the MSP base information in DOIS to monitor carrier
                                          performance effectively. This occurred because they
                                          were not using PS Form 3999, Inspection of Letter

1
 Postal Service Headquarters and Pacific Area Delivery management stated that more than 50 percent of the
variance would be too high because managers cannot capture that much in a reasonable amount of time. However,
Postal Service officials thought that 50 percent of the variance was a reasonable figure.



                                                      i
City Letter Carrier Operations -                                                     DR-AR-05-014
 San Diego District



                                          Carrier Route, or another current form to update the
                                          route pivot plan.

                                      •   Supervisors and managers did not always properly
                                          document letter carriers’ unauthorized overtime and
                                          take appropriate corrective action to assist in
                                          managing overtime issues. Supervisors said that
                                          documenting unauthorized overtime was a low
                                          priority.

 Summary of                        We recommended the manager, San Diego District, direct
 Recommendations                   delivery facility supervisors and managers to enforce the
                                   policy for carriers to submit a PS Form 3996 when workload
                                   or volume indicates the need for additional time and require
                                   them to properly document the reasons for the request. The
                                   manager should also instruct supervisors to only authorize
                                   time that carriers request and keep route base information
                                   readily available. In addition, the manager should direct
                                   supervisors and managers to use DOIS Reports timely to
                                   manage daily delivery operations and review MSP base
                                   information to monitor carrier performance.

                                   Finally, the manager, San Diego District, should require
                                   supervisors and managers to consistently document
                                   unauthorized overtime on required forms and take
                                   appropriate corrective action.

 Summary of                        Management agreed with our findings and
 Management’s                      recommendations. Management provided support for
 Comments                          actions already taken, such as instituting management
                                   guidelines and providing training on the proper use of PS
                                   Form 3996 and DOIS. In addition, management has
                                   provided or scheduled MSP training for all DOIS offices in
                                   the San Diego District. Management issued a
                                   memorandum reiterating the current policies requiring
                                   supervisors to document unauthorized overtime.
                                   Management’s comments, in their entirety, are included in
                                   Appendix E of this report.

 Overall Evaluation of             Management’s actions taken or planned are responsive to
 Management’s                      our findings and recommendations and should correct the
 Comments                          issues identified in the findings.




                                                   ii
City Letter Carrier Operations -                                                                   DR-AR-05-014
 San Diego District


                                            INTRODUCTION
    Background                     The Postal Service delivered over 200 billion pieces of mail
                                   to more than 143 million addresses in fiscal year (FY) 2004
                                   and expects to deliver to an additional 1.6 million addresses
                                   in FY 2005. The Delivery Operations Information System
                                   (DOIS), deployed in FY 2002, provides operational data to
                                   the delivery facility supervisors and managers to assist them
                                   in managing daily carrier operations and reducing costs.
                                   This data includes mail volume, mail arrival and dispatch
                                   times, and projected office and street hours for routes.

                                   As shown in Figure 1, delivery operations constitute
                                   45 percent of the workhours in the FY 2005 field operating
                                   budget, which is mainly attributable to office and street
                                   workhours. Salary and benefits for rural and city carriers
                                   totaled approximately $21 billion. Also, in the FY 2005 field
                                   budget, the Postal Service established a goal to reduce
                                   delivery workhours by 6.2 million. City delivery hours are
                                   budgeted as 73 percent of total delivery workhours.2

                                   Figure 1. FY 2005 Field Budget Workhours


                                                                       45%




                                                                                            8%




                                                            23%                       16%

                                                                        3% 5%

                                              Support, Controller, Disability and Consolidated Function
                                              Mail Processing
                                              Delivery
                                              Vehicle Service and Plant Maintenance
                                              Customer Service
                                              Field Administration



2
 Total delivery workhours for FY 2005 were budgeted at 631,731,535. Of the total delivery workhours, 458,064,595
(or 73 percent) were charged to the city delivery function code (2B).



                                                        1
City Letter Carrier Operations -                                                                             DR-AR-05-014
 San Diego District



                                      The Pacific Area consists of 753 delivery facilities3 in
                                      ten districts. The Pacific Area’s FY 2005 budget
                                      performance goal is to reduce city delivery workhours by
                                      721,889, representing a cost savings of $25,413,240.
                                      The San Diego District–with 96 delivery facilities–is the
                                      third largest district in the Pacific Area.

                                      Each delivery facility’s mail volume, mail arrival and
                                      dispatch times, and office and street hours vary and are
                                      managed by the delivery facility supervisor or manager. In
                                      addition, routes in a city delivery facility have an established
                                      office and street time (usually eight hours) based on the last
                                      route inspection. One aspect of daily delivery facility
                                      operations is preparation and submission of Postal Service
                                      (PS) Form 3996, Carrier – Auxiliary Control, by city letter
                                      carriers requesting overtime or assistance on their routes.
                                      The supervisor reviews each request and either approves
                                      the additional time, decreases the time, or denies the
                                      carrier’s request. The supervisor bases this decision on the
                                      daily workload or mail volume received in the delivery
                                      facility.

                                      Unauthorized time is time worked that is not authorized by
                                      the supervisor/manager. For example, when a carrier
                                      requests 1 hour of additional time, but uses 1 hour and
                                      30 minutes, the extra 30 minutes is unauthorized time.
                                      Unjustified time occurs when the workload or volume does
                                      not support the hours used. Using the above example, if
                                      the carrier worked 1 hour and 30 minutes of extra time, but
                                      the workload only supported 30 minutes, the extra 1 hour
                                      would be classified as unjustified time. A carrier can have
                                      both unauthorized and unjustified time, simultaneously.

                                      To determine the amount of unauthorized and unjustified
                                      overtime on routes, a “3996 audit” of a delivery facility’s
                                      activities can be performed. Using the DOIS Workload
                                      Status Report,4 the PS Form 3996,5 Route/Carrier Daily


3
  A delivery facility is a building with one or more delivery units. A delivery unit is a group of routes that usually belong
to a ZIP Code. However, some ZIP Codes with a few routes can be combined to form one delivery unit and a ZIP
Code with a large number of routes may be split into more than one delivery unit.
4
  Workload Status Reports provide management with data such as volume, parcel, and delivery point sequenced mail
to make effective decisions in matching workhours to workload.
5
  Carriers complete a PS Form 3996 to request overtime or auxiliary assistance on their route for a day when they
estimate the route will exceed eight hours because of workload and volume.



                                                              2
City Letter Carrier Operations -                                                                         DR-AR-05-014
 San Diego District


                                    Performance Report,6 and Carrier Control Workload
                                    Sheets,7 several factors are reviewed:

                                              •   The amount of time the carrier requests for the
                                                  route.

                                              •   The amount of time the supervisor approves for
                                                  the route.

                                              •   The total time the carrier uses on the route.

                                              •   The justified and unjustified time.

                                    In addition to reviewing the PS Form 3996, an analysis of
                                    the completed PS Forms 1017-B, Unauthorized Overtime
                                    Record, can be conducted to determine if supervisors are
                                    correcting carrier performance issues.

                                    Managed Service Points (MSP) is a computerized tool
                                    designed to monitor consistency of delivery time and
                                    enhance street management using mobile data collection
                                    devices. Letter carriers scan barcodes placed at service
                                    points reflecting key elements of the employee workday.
                                    Seven basic scan points are required:

                                         1.   Hot Case8
                                         2.   Depart to Route
                                         3.   First Delivery
                                         4.   Last Delivery Before Lunch
                                         5.   First Delivery After Lunch
                                         6.   Last Delivery
                                         7.   Return to Office

                                    At the conclusion of each workday, the carrier downloads
                                    the MSP data collected into DOIS. Management compares
                                    this data to the MSP base information employees store in
                                    DOIS to generate reports supervisors can use to better
                                    understand the carrier’s performance.


6
  The Route/Carrier Daily Performance Report helps supervisors evaluate the performances of all routes within a
delivery unit for a single day.
7
  The Carrier Workload Control Sheet contains the base statistics for a route such as volume, number of deliveries,
street factors, and accountables as determined by the last route inspection.
8
  A hot case is a location within the delivery facility where employees resort mail missent from the processing plant
and give it to the assigned carrier.



                                                           3
City Letter Carrier Operations -                                                      DR-AR-05-014
 San Diego District




 Objectives, Scope,                Our overall objective was to assess the management of city
 and Methodology                   letter carrier operations. Specifically, we determined
                                   whether delivery supervisors and managers adequately
                                   matched workhours with workload, used DOIS Reports in a
                                   timely manner to manage operations, and effectively used
                                   the MSP base information to monitor carrier performance.

                                   Additionally, we assessed whether delivery facility
                                   supervisors/managers properly tracked unauthorized time
                                   by documenting a letter carrier’s unauthorized time and
                                   taking corrective action. Our audit scope reviewed city letter
                                   carrier operations for the five-month period May 1 through
                                   September 30, 2004.

                                   To accomplish our objectives, we randomly selected
                                   six delivery xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                   San Diego District: xxxxxxxxxxxxxxxxxxxxxxxxxxxx
                                   xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx To determine whether
                                   delivery facility supervisors/managers adequately matched
                                   workhours with workload, we randomly selected 20 days
                                   from a 5-month scope period of May 1 through
                                   September 30, 2004, at each delivery facility and conducted
                                   “3996 audits” for each day to quantify the amount of
                                   unjustified time. We also observed the delivery facility
                                   supervisors’ and station managers’ morning activities of
                                   measuring and recording mail volume, reviewing Workload
                                   Status Reports, and approving overtime.

                                   To determine whether delivery facility supervisors and
                                   managers effectively used DOIS Reports in a timely
                                   manner, we analyzed required morning report data from the
                                   Workload Status, Route/Carrier Daily Performance, and
                                   MSP Overview Reports. Additionally, we reviewed the base
                                   MSP information for all routes at the six delivery facilities
                                   and reviewed the use of the log for PS Forms 1017-B.

                                   We conducted this audit from December 2004 through
                                   August 2005, in accordance with generally accepted
                                   government auditing standards and included such tests of
                                   internal controls as were considered necessary under the
                                   circumstances. We relied on data obtained from the Web
                                   Enabled Enterprise Information System (WebEIS) and
                                   DOIS. We did not directly audit these systems, but



                                                    4
City Letter Carrier Operations -                                                       DR-AR-05-014
 San Diego District


                                   performed a limited data integrity review to support our data
                                   reliance. We discussed our observations and conclusions
                                   with appropriate management officials and included their
                                   comments where appropriate.

 Prior Audit Coverage              The Office of Inspector General (OIG) has issued
                                   three audits related to our objectives.

                                   City Letter Carrier Operations – Rio Grande District (Report
                                   Number DR-AR-05-009, December 2, 2004). The report
                                   outlined opportunities to improve the management of city
                                   letter carrier operations in the Rio Grande District. Delivery
                                   facility supervisors and managers did not adequately match
                                   workhours with workload. We projected the three delivery
                                   facilities had 5,318 unjustified hours (at an estimated cost of
                                   $193,947) not supported by volume or workload over the
                                   five-month period October 1, 2003, through February 29,
                                   2004. We reported 2,543 of the unjustified hours–or
                                   $92,762–as unrecoverable costs. We also noted that
                                   supervisors/managers did not effectively use DOIS to
                                   manage daily operations and delivery unit supervisors and
                                   managers did not consistently perform street management
                                   or effectively use MSP to monitor city letter carriers’ street
                                   time to correct negative trends.

                                   City Letter Carrier Office Preparation in the Dallas District
                                   (Report Number DR-AR-04-005, July 26, 2004). The report
                                   stated that opportunities exist to improve Dallas District city
                                   letter carrier office preparation operations. Specifically,
                                   impediments existed that adversely impacted delivery
                                   facility supervisors’/managers’ ability to adequately match
                                   workhours with workload. In addition, city letter carriers’
                                   work activities did not always ensure they departed the
                                   delivery facility as scheduled and supervisors/managers did
                                   not use the DOIS to assist in managing office activities.

                                   City Carrier Productivity – Letter Carrier Delays in the
                                   Baltimore District (Report Number TD-AR-03-011, July 28,
                                   2003). The report stated that early reporting wasted
                                   carriers’ morning time and exposed the Baltimore District to
                                   potential unnecessary evening overtime costs. It was noted




                                                    5
City Letter Carrier Operations -                                                     DR-AR-05-014
 San Diego District



                                   supervisors/managers were not using DOIS to manage
                                   carrier schedules and, consequently, could not use the
                                   system to evaluate carrier scheduling or take corrective
                                   action.




                                                    6
City Letter Carrier Operations -                                                           DR-AR-05-014
 San Diego District



                                           AUDIT RESULTS
 City Letter Carrier               Opportunities exist to improve the management of city letter
 Operations                        carrier operations in the San Diego District. Specifically:

                                       •   Delivery facility supervisors and managers did not
                                           effectively match workhours with workload. As a
                                           result, we projected the six delivery facilities had
                                           10,094 unjustified hours that were not supported by
                                           volume or workload from May 1 through
                                           September 30, 2004. We projected the sample
                                           results to all 32 similarly sized delivery facilities in the
                                           district for a total of 53,835 unjustified hours. We
                                           agreed to unrecoverable costs of 50 percent of the
                                           total variance within WebEIS, which amounts to
                                           $1,423,935. (See Appendix D.)

                                       •   Supervisors and managers did not timely use DOIS
                                           Reports such as the Workload Status, Route/Carrier
                                           Daily Performance and MSP Overview Reports to
                                           effectively manage daily operations.

                                       •   Supervisors and managers did not consistently use
                                           MSP base information to effectively monitor carrier
                                           performance.

                                       • Supervisors and managers did not always properly
                                         document letter carriers’ unauthorized overtime
                                         occurrences and take appropriate corrective action.

 Workhours to                      Delivery facility supervisors and managers did not
 Workload Not                      adequately match workhours with workload. We projected
 Adequately Matched                the sample results in the 32 similarly sized delivery facilities
                                   in the district for a total of 53,835 unjustified hours with
                                   unrecoverable costs of $1,423,935 over the five-month
                                   period, May 1 through September 30, 2004. The unjustified
                                   hours occurred primarily because carriers did not always
                                   properly complete and submit PS Form 3996 to document
                                   their requests for additional time. In addition, supervisors/
                                   managers authorized time not requested by carriers, did not
                                   take action on PS Forms 3996 and/or did not keep route
                                   base delivery facility supervisors information readily
                                   available. Further, supervisors/managers did not




                                                     7
City Letter Carrier Operations -                                                                           DR-AR-05-014
 San Diego District


                                    always ensure parcels were counted to properly match
                                    workhours with workload.

                                    Postal Service Handbook M-41, City Delivery Carrier Duties
                                    and Responsibilities, Section 131.41 (updated with Postal
                                    Bulletin revisions through April 2001) states that it is the
                                    carrier’s responsibility to complete items on PS Form 3996 if
                                    overtime or auxiliary assistance is authorized for the office or
                                    the street.

                                    Management Instruction, PO-610-2000-1, Piece Count
                                    Recording System, dated December 2000, states that
                                    effective day-to-day management of a delivery facility
                                    requires evaluation of the facility’s daily mail volume. The
                                    Postal Service uses volume data on a daily basis to assess
                                    the workhours needed for any given day.

    Unjustified Time                We analyzed delivery facility information9 and conducted
                                    “3996 audits” for 12010 days at six randomly sampled
                                    delivery facilities from May 1 through September 30, 2004.
                                    The “3996 audits” identified 1,591 unjustified hours (or
                                    97 percent) of the total 1,640 hours that were expended on
                                    routes with time used over 8 hours. We projected the
                                    sample results to all 32 similarly sized delivery facilities in
                                    the district for a total of 53,835 unjustified hours at a
                                    projected cost of over $1.9 million.11

                                    The “3996 audit” process assesses individual route times
                                    used over eight hours. The process cannot differentiate
                                    between time that is truly unjustified and time that is not
                                    supported by documentation. The Total Variance Factor in
                                    the Postal Service’s WebEIS shows the difference between
                                    projected workhours for the workload identified in DOIS and
                                    the actual workhours used by the carriers. Pacific Area
                                    delivery management and the OIG agreed to 50 percent of
                                    the WebEIS variance from May 1 through September 30,
                                    2004, as unrecoverable costs, which amounts to
                                    $1,423,935.12 (See Appendix D.)

9
 DOIS Workload Status Reports, PS Forms 3996, and Router/Carrier Daily Performance Reports.
10
   We randomly selected 20 days from the 5-month period, May 1 through September 30, 2004, for six randomly
sampled delivery facilities (6 x 20 days = 120 days).
11
   Postal Service Finance memorandum dated March 5, 2004, shows the national average labor rate for city letter
carriers in FY 2004. The 53,835 hours multiplied by $36.47 equals $1,963,362.
12
   The WebEIS shows the total variance between the projected workhours for the workload identified in DOIS and the
actual workhours used by the carriers. The total variance for the 32 similarly sized delivery facilities is $2,847,869 for
May 1 through September 30, 2004.



                                                            8
City Letter Carrier Operations -                                                                               DR-AR-05-014
 San Diego District



 PS Form 3996 –                       Carriers did not always submit PS Forms 3996 to request
 Carrier – Auxiliary                  additional time on routes. Of the 120 days we reviewed,
 Control                              84 percent (1,331 of 1,591) of the total unjustified hours
                                      were the result of no documentation. This occurred because
                                      delivery facility management did not emphasize to carriers
                                      the importance of using the form. Further, supervisors often
                                      verbally approved overtime with carriers.

                                      When carriers submitted PS Forms 3996, they did not
                                      always properly document their request for additional time.
                                      For example, carriers requested time with no reasons listed,
                                      or listed reasons with no corresponding amount of time.

                                      Postal Service Handbook M-41, City Delivery Carrier Duties
                                      and Responsibilities, Chapter 2, Section 28, (updated with
                                      Postal Bulletin revisions through April 2001) states that the
                                      carrier must show the reason for requesting assistance on
                                      his/her route in detail on PS Form 3996.

 Supervisors Authorized Supervisors authorized time that was not requested by the
 Additional Time        carrier on PS Form 3996. In addition, supervisors did not
                        always take action on submitted PS Forms 3996 because
                        Postal Service managers relied on their experience to
                        determine route needs. Also, delivery facility management
                        did not establish expectations that directed delivery facility
                        supervisors to approve only time requested by the carrier
                        and justified by the workload.

                                      The sampled delivery facilities did not keep route information
                                      readily available for parcels, accountables,13 and full
                                      coverage times.14 This data is critical because the volume
                                      for these items may increase or decrease each day on a
                                      carrier’s’ route. Without this information, supervisors do not
                                      have objective data to approve overtime requests. We also
                                      noted that carriers combined their requests for multiple
                                      factors instead of separating each factor with the specific
                                      amount of additional time needed on PS Form 3996.
                                      Therefore, it was not obvious how much time the carriers
                                      specifically requested for volume, meeting time, and full
                                      coverage. Supervisors also approved time with combined

13
   Accountable mailpieces include Express Mail and certified mail packages the carrier must deliver, and usually
require the customer’s signature.
14
   Full coverage is the additional time granted to a city letter carrier to deliver mail on a particular day to all possible
delivery points on a route.



                                                               9
City Letter Carrier Operations -                                                        DR-AR-05-014
 San Diego District


                                   factors and did not make any notes about how much they
                                   approved for each factor. This also made it difficult to
                                   objectively justify time.

                                   The delivery facilities incurred unjustified workhours as a
                                   result of carriers not submitting PS Forms 3996 or
                                   submitting incomplete documentation and supervisors/
                                   managers approving time that was not justified by the
                                   workload.

                                   We noted significant improvement in the submission of PS
                                   Forms 3996 by carriers after our audit scope period. We
                                   judgmentally sampled 12 days from November 2004 through
                                   February 2005, and found delivery facility supervisors and
                                   managers were directing carriers to complete PS Forms
                                   3996 when requesting additional time on a route.

 Parcel Counts                     Supervisors did not ensure carriers counted parcels properly
                                   to match workhours with workload in two of the six delivery
                                   facilities reviewed. For example, carriers counted parcels
                                   that were used in daily volume. In addition, delivery facility
                                   management counted parcels for as little as four routes, took
                                   an average of the parcels on the four routes, and then used
                                   this average for the remaining routes within the delivery
                                   facility. This occurred because supervisors felt
                                   overwhelmed with responsibilities and did not have time to
                                   count parcels for each route.

                                   Postal Service Handbook M-39, Management of Delivery
                                   Services, Section 111.2 (updated with Postal Bulletin
                                   revisions through March 2004) states that it is the delivery
                                   service manager’s responsibility to “record on the
                                   appropriate form(s) the daily workload for each route.”

                                   Management Instruction PO-610-2000-1 states that effective
                                   day-to-day management of a delivery facility requires
                                   evaluation of the facility daily mail volume. The Postal
                                   Service uses volume data on a daily basis to assess the
                                   workhours needed for any given day.

                                   As a result of not counting parcels, delivery facility
                                   supervisors/managers could not adequately match
                                   workhours with workload.




                                                    10
City Letter Carrier Operations -                                                        DR-AR-05-014
 San Diego District




 Recommendations                   We recommend the manager, San Diego District:

                                      1. Direct station managers and supervisors to enforce
                                         the policy for carriers to complete a Postal Service
                                         Form 3996, Carrier – Auxiliary Control, when
                                         workload or volume indicates the carrier will need
                                         additional time for the route and require carriers to
                                         properly document reasons for their request of
                                         additional time.

                                      2. Instruct station managers and delivery facility
                                         supervisors to only authorize time requested by
                                         carriers and justified by the workload.

 Management’s                      Management agreed with our finding, unrecoverable costs,
 Comments                          and recommendations 1 and 2. Management sent a
                                   directive to all district delivery management instructing that a
                                   properly completed PS Form 3996 is required for any
                                   instance of overtime usage by a carrier. In addition,
                                   management conducted training during April and June 2005
                                   on the proper use of PS Form 3996 and DOIS.

 Recommendations                      3. Require station managers and delivery facility
                                         supervisors to keep route base information readily
                                         available that shows base parcels, accountables, and
                                         full coverage times.

                                      4. Have station managers require delivery facility
                                         supervisors/managers to count or validate parcels for
                                         each route in order to adequately match workhours to
                                         workload.

 Management’s                      Management stated that, although they could not find a
 Comments                          reference requirement for recommendation 3, they found
                                   merit in having base route information readily available.
                                   Management established a matrix for each office to use that
                                   identifies each route’s base parcels, accountables, and full
                                   coverage street time. Management agreed with
                                   recommendation 4 and stated that volume recording is an
                                   item validated on audits conducted by district personnel.




                                                    11
City Letter Carrier Operations -                                                     DR-AR-05-014
 San Diego District




 Evaluation of                     Management’s comments are responsive to our finding and
 Management’s                      recommendations 1, 2, 3, and 4. Management’s actions
 Comments                          taken or planned should correct the issues identified in the
                                   finding.




                                                   12
City Letter Carrier Operations -                                                           DR-AR-05-014
 San Diego District


 Supervisors Did Not                   Supervisors and managers did not timely view DOIS
 Timely View DOIS                      operational reports to assist in managing carrier activities in
 Reports                               all six sampled delivery facilities. This occurred because
                                       supervisors relied on their delivery experience to make
                                       decisions. According to the Delivery Operations Information
                                       System Quality Assessment, September 9, 2002, it is critical
                                       that supervisors use DOIS to manage daily facility
                                       operations.

                                       Supervisors and managers did not always review the
                                       Workload Status, Route/Carrier Daily Performance, and
                                       MSP Overview Reports at the appropriate time. As
                                       illustrated in Table 1, supervisors were not using the
                                       operational delivery data available to manage their delivery
                                       facility.

                                              Table 1. Supervisors’ DOIS Activity
                                              May 1 Through September 30, 2004
                                                          (127 days)
                                                                          Days
                                                                     Route/Carrier
                                                        Days              Daily
                                 Six Randomly         Workload        Performance        Days MSP
                                   Sampled         Status Report      Report NOT         Overview
                                    Delivery        NOT Viewed       Viewed Before      Report NOT
                                   Facilities       Before 8 a.m.        8 a.m.           Viewed
                                Xxxxx xxxxxx                    37                14             15
                                xxxxxx                          45                27              6
                                Xxxxx xxxxx                     53                57             50
                                xxxxxxxx                       125               126            126
                                xxxxxx                           4                 8             21
                                Xxxxx xxxxx                     17                13              6
                                TOTAL                          281               245            224

                                       The Workload Status and Route Carrier Daily Performance
                                       Reports were not always viewed by 8:00 a.m. as required.
                                       In the San Diego District, the Workload Status Report
                                       was viewed after 8:00 a.m. in 281 of 76215 instances (or
                                       37 percent of the time) and the Route/Carrier Daily
                                       Performance Report was either not viewed at all or viewed
                                       after 8:00 a.m. in 245 of 762 instances (or 32 percent of the
                                       time). The MSP Overview Report was not viewed in 224 of
                                       762 (or 29 percent) instances required at facilities sampled
                                       in the San Diego District from May 1 through September 30,

15
     127 workdays times 6 delivery facilities equals 762.



                                                            13
City Letter Carrier Operations -                                                     DR-AR-05-014
 San Diego District


                                   2004. Supervisors/managers did not review DOIS Reports
                                   in a timely manner because they relied more on their
                                   delivery experience than on the reports and placed less
                                   emphasis on the DOIS Reports because the time variances
                                   were occurring with carriers’ office activities and not with
                                   street delivery.

                                   Delivery Operations Information System Quality
                                   Assessment, September 9, 2002, and the Pacific Area AM
                                   Standard Operating Procedures (AM SOP), October 29,
                                   2004, states it is critical that supervisors use DOIS to
                                   manage daily facility operations and review reports timely.

                                   As a result, supervisors/managers who do not retrieve and
                                   review Workload Status, Route/Carrier Daily Performance,
                                   and MSP Overview Reports timely may not be making
                                   effective decisions in matching workhours to workload and
                                   addressing carrier performance issues.

                                   The AM SOP procedures are currently being instituted in all
                                   delivery facilities with a reemphasis on the use of DOIS
                                   Reports. We reviewed the use of DOIS Reports again after
                                   our audit scope period and found facilities were improving
                                   their timely use of operational data.

 Recommendations                   We recommend the manager, San Diego District:

                                      5. Direct station managers and supervisors to review
                                         Workload Status and Route Carrier Daily
                                         Performance Reports by 8:00 a.m. so they can
                                         accurately match workload to workhours and address
                                         carrier performance issues.

                                      6. Direct station supervisors and managers to comply
                                         with the Pacific Area’s AM Standard Operating
                                         Procedures, which requires daily review of the
                                         Managed Service Points Overview Report.

 Management’s                      Management agreed with the finding and recommendations
 Comments                          5 and 6. Station supervisors and managers now complete
                                   workload status summaries daily to track the effectiveness
                                   of reviewing the report before 8:00 a.m. In addition, the
                                   San Diego District has implemented a daily review of a new
                                   MSP Overview Report.




                                                   14
City Letter Carrier Operations -                                                     DR-AR-05-014
 San Diego District




 Evaluation of                     Management’s comments are responsive to the finding and
 Management’s                      recommendations 5 and 6. Management’s actions taken or
 Comments                          planned should correct the issues identified in the finding.




                                                   15
City Letter Carrier Operations -                                                                             DR-AR-05-014
 San Diego District




 Managed Service                      Delivery facility managers did not consistently use MSP
 Points Base                          base information in DOIS to effectively monitor carrier
 Information                          performance. We reviewed the base MSP information for
                                      all routes at the six randomly sampled delivery facilities and
                                      identified 158 of 229 (69 percent) routes where office and
                                      street times were out-of-sequence.16

                                      Examples of out-of-sequence conditions included:

                                          •    Return to office time before the last delivery.

                                          •    Delivery times are defaulted to 12:00 a.m.

                                          •    Different streets have the same scan time.

                                      The out-of-sequence times were the result of supervisors
                                      not having a current PS Form 399917 or not using a current
                                      form to update the route pivot plan. The route pivot plan is
                                      a detailed description of the route that the city delivery
                                      carrier should follow while delivering mail on the street.
                                      District officials said there is a need for training on updating
                                      pivot plans. Delivery facilities without a recent route
                                      adjustment will likely need the training.

                                      As a result of not reviewing the MSP Overview Report on a
                                      daily basis (as illustrated in Table 1), supervisors and
                                      managers were unable to determine variances between the
                                      actual and scheduled times of MSP scan points that could
                                      identify carrier performance issues or identify inaccurate
                                      MSP base information.

 Recommendations                      We recommend the manager, San Diego District:

                                          7. Provide additional training to station supervisors and
                                             managers in using Managed Service Points more
                                             effectively.




16
  Out-of-sequence times occur when the scheduled times for the route do not occur in chronological order.
17
  PS Form 3999, Inspection of Letter Carrier Route, records all pertinent information concerning a carrier's office and
street time, including line of travel details, listing office leave time, first delivery time, lunch time, and last delivery
time.




                                                             16
City Letter Carrier Operations -                                                     DR-AR-05-014
 San Diego District



                                   We recommend the manager, San Diego District:

                                      8. Require employees to update Managed Service
                                         Points base information when any changes are made
                                         to a route.

 Management’s                      Management agreed with the finding and recommendations
 Comments                          7 and 8. Management provided additional MSP training and
                                   scheduled training for all DOIS offices in the San Diego
                                   District. In addition, management established standard
                                   operating procedures to ensure that any time they change a
                                   route, the office will recreate the pivot plan which will, in
                                   turn, update the MSP base information.

 Evaluation of                     Management’s comments are responsive to our finding and
 Management’s                      recommendations 7 and 8. Management’s actions taken
 Comments                          and planned should correct the issues identified in the
                                   finding.




                                                   17
City Letter Carrier Operations -                                                      DR-AR-05-014
 San Diego District




 Unauthorized Time                 Supervisors/managers did not consistently document letter
 Not Properly                      carriers’ unauthorized overtime occurrences using PS
 Documented                        Form 1017-B. In the San Diego District there were only
                                   16 entries recorded for any of the 120 sample days for the
                                   five-month period May 1 through September 30, 2004.
                                   Two facilities had no entries recorded for the entire
                                   five-month period and four remaining facilities only had a
                                   combined 61 entries, 43 of which were from one facility.
                                   Another facility had one entry in the PS Form 1017-B log for
                                   the five-month period. Supervisors/managers stated that
                                   completing a PS Form 1017-B was a lower priority and they
                                   informally discussed unauthorized overtime occurrences
                                   with carriers.

                                   The supervisor should have documented the discussion
                                   with the carrier regarding the reasons for unauthorized
                                   overtime after returning from the route in the remarks
                                   section of PS Form 1017-B.

                                   Handbook F-401, Supervisor’s Guide to Scheduling and
                                   Premium Pay, Chapter, 5, Section F, August 2000, states,
                                   “employees are responsible for adhering to their assigned
                                   work schedules. A variance from the assigned work
                                   schedule will result in unauthorized overtime. Supervisors
                                   must document these occurrences on PS Form 1017-B and
                                   take appropriate corrective action.”

                                   As a result of not documenting unauthorized overtime,
                                   supervisors were not able to effectively consult and correct
                                   carrier performance issues to assist in managing overtime
                                   hours.

 Recommendation                    We recommend the manager, San Diego District:

                                      9. Reinforce the policy in Handbook F-401, Supervisor’s
                                         Guide to Scheduling and Premium Pay, to properly
                                         complete PS Form 1017- B, Unauthorized Overtime
                                         Record, to document unauthorized overtime and take
                                         appropriate corrective action.

 Management’s                      Management agreed with the finding and recommendation.
 Comments                          Management issued a memorandum to managers
                                   reiterating current policies related to the documentation of



                                                   18
City Letter Carrier Operations -                                                     DR-AR-05-014
 San Diego District



                                   unauthorized overtime. Additionally, district management
                                   conducted overtime control audits of its delivery units to
                                   ensure internal controls are in place and that employees
                                   strictly follow guidelines.

 Evaluation of                     Management’s comments are responsive to the finding and
 Management’s                      recommendation. Actions taken should correct the issue
 Comments                          identified in the finding.




                                                   19
         City Letter Carrier Operations -                                                                                                                                   DR-AR-05-014
          San Diego District


                                          APPENDIX A. SUMMARY OF 120 “3996 AUDITS”




                                                                                  Total Time Used Greater Than




                                                                                                                                                                      Total Routes Greater Than
                                                                                                                                          Total Unjustified Percent
                                                                                  Eight Hours in Minutes



                                                                                                                 Total Unjustified Time




                                                                                                                                                                                                       No PS Form 3996 but
                                                                                                                                                                                                       Route Greater Than
                      Delivery Facility




                                                               Day of Week




                                                                                                                                                                      Eight Hours




                                                                                                                                                                                                       Eight Hours
                                                                                                                 in Minutes
Number




                                                  Date



     1     xxxxxxxxxxx                         05/10/04   M                                    2,059                     2,004                           97%                                      30                   27
     2     xxxxxxxxxxx                         05/12/04   W                                    1,741                     1,741            100%                                                    23                   23
     3     xxxxxxxxxxx                         06/03/04   Th                                              625                     625     100%                                                    15                   15
     4     xxxxxxxxxxx                         06/05/04   S                                               675                     675     100%                                                    10                   10
     5     xxxxxxxxxxx                         06/07/04   M                                    1,346                     1,346            100%                                                    26                   24
     6     xxxxxxxxxxx                         06/17/04   Th                                              884                     884     100%                                                    15                   14
     7     xxxxxxxxxxx                         07/09/04   F                                    1,400                     1,400            100%                                                    19                   18
     8     xxxxxxxxxxx                         07/10/04   S                                    1,495                     1,495            100%                                                    12                   12
     9     xxxxxxxxxxx                         07/29/04   Th                                   1,194                     1,194            100%                                                    18                   17
  10       xxxxxxxxxxx                         07/31/04   S                                               237                     237     100%                                                     6                         6
  11       xxxxxxxxxxx                         08/04/04   W                                    1,643                     1,643            100%                                                    29                   28
  12       xxxxxxxxxxx                         08/06/04   F                                    1,249                     1,249            100%                                                    13                   13
  13       xxxxxxxxxxx                         08/21/04   S                                    1,404                     1,404            100%                                                    15                   14
  14       xxxxxxxxxxx                         08/24/04   T                                    1,184                     1,184            100%                                                    19                   17
  15       xxxxxxxxxxx                         08/31/04   T                                    1,970                     1,970            100%                                                    25                   24
  16       xxxxxxxxxxx                         09/01/04   W                                    1,580                     1,580            100%                                                    21                   21
  17       xxxxxxxxxxx                         09/10/04   F                                    1,388                     1,388            100%                                                    19                   19
  18       xxxxxxxxxxx                         09/11/04   S                                    1,001                     1,001            100%                                                    17                   17
  19       xxxxxxxxxxx                         09/18/04   S                                    1,681                     1,681            100%                                                    19                   18
  20       xxxxxxxxxxx                         09/21/04   T                                    2,226                     2,226            100%                                                    29                   28
  21       xxxxxxx                             05/03/04   M                                    1,074                              963                    90%                                      18                         9
  22       xxxxxxx                             05/06/04   Th                                              936                     795                    85%                                      18                         7
  23       xxxxxxx                             05/27/04   Th                                   1,114                     1,114            100%                                                     4                         1
  24       xxxxxxx                             06/16/04   W                                    1,301                     1,095                           84%                                      20                         6
  25       xxxxxxx                             06/17/04   Th                                              684                     625                    91%                                       8                         7
  26       xxxxxxx                             06/26/04   S                                               350                     251                    72%                                       6                         2
  27       xxxxxxx                             07/03/04   S                                               369                     334                    91%                                      11                         7
  28       xxxxxxx                             07/16/04   F                                               391                     617                    92%                                      13                         6
  29       xxxxxxx                             07/20/04   T                                               174                     134                    77%                                       7                         5
  30       xxxxxxx                             07/24/04   S                                               367                     290                    79%                                       5                         3




                                                                             20
         City Letter Carrier Operations -                                                                                                                                             DR-AR-05-014
          San Diego District




                                                                             Total Time Used Greater Than




                                                                                                                                                                                Total Routes Greater Than
                                                                                                                                               Total Unjustified Percent
                                                                             Eight Hours in Minutes



                                                                                                                 Total Unjustified Time




                                                                                                                                                                                                                 No PS Form 3996 but
                                                                                                                                                                                                                 Route Greater Than
                      Delivery Facility




                                                          Day of Week




                                                                                                                                                                                Eight Hours




                                                                                                                                                                                                                 Eight Hours
                                                                                                                 in Minutes
Number




                                             Date

  31       xxxxxxx                        08/02/04   M                                    1,322                          1,296                                98%                                           15                         9
  32       xxxxxxx                        08/11/04   W                                    1,153                                   975                         85%                                           16                         9
  33       xxxxxxx                        08/12/04   Th                                                     81                            81   100%                                                          6                         4
  34       xxxxxxx                        08/18/04   W                                               897                          880                         98%                                           22                   12
  35       xxxxxxx                        08/21/04   S                                               162                          129                         80%                                            4                         2
  36       xxxxxxx                        08/27/04   F                                               357                          324                         91%                                           11                         7
  37       xxxxxxx                        09/03/04   F                                               669                          628                         94%                                           13                         9
  38       xxxxxxx                        09/16/04   Th                                              809                          762                         94%                                           15                         7
  39       xxxxxxx                        09/18/04   S                                               364                          274                         75%                                            8                         5
  40       xxxxxxx                        09/24/04   F                                               386                          383                         99%                                           10                         8
  41       xxxxxxxxxxxx                   05/01/04   S                                               160                          160          100%                                                          4                         4
  42       xxxxxxxxxxxx                   05/06/04   Th                                              103                          103          100%                                                          4                         4
  43       xxxxxxxxxxxx                   05/14/04   F                                               164                          164          100%                                                          4                         4
  44       xxxxxxxxxxxx                   05/19/04   W                                               213                          213          100%                                                          9                         5
  45       xxxxxxxxxxxx                   05/26/04   W                                               102                          102          100%                                                          3                         2
  46       xxxxxxxxxxxx                   06/03/04   Th                                                      0                             0                               0%                                0                         0
  47       xxxxxxxxxxxx                   06/05/04   S                                                      55                            55   100%                                                          2                         2
  48       xxxxxxxxxxxx                   06/21/04   M                                               147                          147          100%                                                          3                         1
  49       xxxxxxxxxxxx                   07/16/04   F                                                      42                            42   100%                                                          2                         2
  50       xxxxxxxxxxxx                   07/24/04   S                                                      75                            75   100%                                                          4                         4
  51       xxxxxxxxxxxx                   08/03/04   T                                               268                          268          100%                                                          6                         6
  52       xxxxxxxxxxxx                   08/06/04   F                                                       3                             3   100%                                                          2                         2
  53       xxxxxxxxxxxx                   08/10/04   T                                               145                          145          100%                                                          6                         4
  54       xxxxxxxxxxxx                   08/17/04   T                                                      93                            79                  85%                                            6                         5
  55       xxxxxxxxxxxx                   08/20/04   F                                               171                          171          100%                                                          4                         4
  56       xxxxxxxxxxxx                   08/25/04   W                                               194                          194          100%                                                          3                         3
  57       xxxxxxxxxxxx                   09/01/04   W                                    1,046                          1,046                 100%                                                         15                   14
  58       xxxxxxxxxxxx                   09/07/04   T                                    1,488                          1,488                 100%                                                         26                   23
  59       xxxxxxxxxxxx                   09/20/04   M                                               210                          210          100%                                                          8                         7
  60       xxxxxxxxxxxx                   09/24/04   F                                               453                          453          100%                                                          6                         5




                                                                        21
         City Letter Carrier Operations -                                                                                                                                         DR-AR-05-014
          San Diego District




                                                                              Total Time Used Greater Than




                                                                                                                                                                            Total Routes Greater Than
                                                                                                                                                Total Unjustified Percent
                                                                              Eight Hours in Minutes



                                                                                                                  Total Unjustified Time




                                                                                                                                                                                                             No PS Form 3996 but
                                                                                                                                                                                                             Route Greater Than
                       Delivery Facility




                                                           Day of Week




                                                                                                                                                                            Eight Hours




                                                                                                                                                                                                             Eight Hours
                                                                                                                  in Minutes
Number




                                              Date
  61       xxxxxxxxx                       05/01/04   S                                               198                          198          100%                                                     4                         4
  62       xxxxxxxxx                       05/13/04   Th                                              655                          655          100%                                                    10                   10
  63       xxxxxxxxx                       05/19/04   W                                               387                          387          100%                                                    13                   13
  64       xxxxxxxxx                       05/21/04   F                                               260                          260          100%                                                     8                         8
  65       xxxxxxxxx                       05/29/04   S                                               309                          309          100%                                                     3                         3
  66       xxxxxxxxx                       06/12/04   S                                    1,809                          1,809                 100%                                                    26                   26
  67       xxxxxxxxx                       06/26/04   S                                               239                          239          100%                                                     6                         6
  68       xxxxxxxxx                       07/06/04   T                                    1,317                          1,317                 100%                                                    26                   26
  69       xxxxxxxxx                       07/08/04   Th                                              299                          299          100%                                                    10                   10
  70       xxxxxxxxx                       07/20/04   T                                    1,154                          1,154                 100%                                                    12                   12
  71       xxxxxxxxx                       08/03/04   T                                    1,141                          1,141                 100%                                                    27                   27
  72       xxxxxxxxx                       08/18/04   W                                               897                          897          100%                                                    16                   16
  73       xxxxxxxxx                       08/21/04   S                                               242                          242          100%                                                     5                         5
  74       xxxxxxxxx                       09/01/04   W                                    1,528                          1,528                 100%                                                    20                   20
  75       xxxxxxxxx                       09/04/04   S                                               579                          579          100%                                                     8                         8
  76       xxxxxxxxx                       09/10/04   F                                               663                          663          100%                                                    14                   13
  77       xxxxxxxxx                       09/14/04   T                                    1,259                          1,259                 100%                                                    25                   25
  78       xxxxxxxxx                       09/15/04   W                                               991                          991          100%                                                    20                   19
  79       xxxxxxxxx                       09/17/04   F                                               781                          781          100%                                                    14                   14
  80       xxxxxxxxx                       09/29/04   W                                    1,304                          1,304                 100%                                                    26                   23
  81       xxxxxx                          05/08/04   S                                               650                          586                         90%                                      16                   10
  82       xxxxxx                          05/24/04   M                                                      32                            32   100%                                                     2                         2
  83       xxxxxx                          05/28/04   F                                               491                          477                         97%                                       6                         3
  84       xxxxxx                          06/21/04   M                                                      75                            75   100%                                                     7                         3
  85       xxxxxx                          06/24/04   T                                               191                          191          100%                                                     7                         3
  86       xxxxxx                          06/28/04   M                                               323                          268                         82%                                      11                         5
  87       xxxxxx                          06/29/04   T                                               289                          269                         93%                                       9                         6
  88       xxxxxx                          07/03/04   S                                                      33                            33   100%                                                     3                         0
  89       xxxxxx                          07/09/04   F                                                      25                            25   100%                                                     2                         1
  90       xxxxxx                          07/16/04   F                                               118                          118          100%                                                     8                         5
  91       xxxxxx                          07/19/04   M                                               272                          272          100%                                                     8                         6




                                                                         22
         City Letter Carrier Operations -                                                                                                                                                 DR-AR-05-014
          San Diego District




                                                                                      Total Time Used Greater Than




                                                                                                                                                                                    Total Routes Greater Than
                                                                                                                                                        Total Unjustified Percent
                                                                                      Eight Hours in Minutes



                                                                                                                          Total Unjustified Time




                                                                                                                                                                                                                     No PS Form 3996 but
                                                                                                                                                                                                                     Route Greater Than
                      Delivery Facility




                                                                   Day of Week




                                                                                                                                                                                    Eight Hours




                                                                                                                                                                                                                     Eight Hours
                                                                                                                          in Minutes
Number




                                                      Date
  92       xxxxxx                                  07/23/04   F                                               630                          601                         95%                                      12                         6
  93       xxxxxx                                  08/19/04   Th                                              154                          154          100%                                                     5                         5
  94       xxxxxx                                  08/24/04   T                                                      40                            40   100%                                                     5                         4
  95       xxxxxx                                  08/25/04   W                                               140                                  75                  54%                                      10                         5
  96       xxxxxx                                  08/30/04   M                                               232                          181                         78%                                      11                         4
  97       xxxxxx                                  08/31/04   T                                               110                          110          100%                                                     5                         4
  98       xxxxxx                                  09/08/04   W                                               208                          208          100%                                                     9                         8
  99       xxxxxx                                  09/10/04   F                                               228                          228          100%                                                    10                         7
100        xxxxxx                                  09/11/04   S                                               152                          147                         97%                                       8                         3
101        xxxxxxxxxxx                             05/05/04   W                                    1,366                          1,290                                94%                                      27                   24
102        xxxxxxxxxxx                             05/25/04   T                                    1,820                          1,707                                94%                                      32                   25
103        xxxxxxxxxxx                             06/01/04   T                                    4,108                          3,988                                97%                                      43                   33
104        xxxxxxxxxxx                             06/03/04   Th                                              501                          484                         97%                                      14                   12
105        xxxxxxxxxxx                             06/05/04   S                                    2,072                          2,032                                98%                                      23                   21
106        xxxxxxxxxxx                             06/07/04   M                                    1,664                          1,620                                97%                                      29                   25
107        xxxxxxxxxxx                             06/25/04   F                                               873                          873          100%                                                    17                   15
108        xxxxxxxxxxx                             06/26/04   S                                               548                          434                         79%                                      11                         7
109        xxxxxxxxxxx                             07/08/04   Th                                   1,279                          1,230                                96%                                      11                   11
110        xxxxxxxxxxx                             07/13/04   T                                    1,141                          1,113                                97%                                      22                   21
111        xxxxxxxxxxx                             07/14/04   W                                               842                          768                         91%                                      15                   11
112        xxxxxxxxxxx                             07/16/04   F                                               303                          303          100%                                                    11                   10
113        xxxxxxxxxxx                             07/27/04   T                                    1,020                                   965                         95%                                      17                   13
114        xxxxxxxxxxx                             08/06/04   F                                    1,859                          1,747                                94%                                      19                   15
115        xxxxxxxxxxx                             08/18/04   W                                    1,095                          1,070                                98%                                      19                   16
116        xxxxxxxxxxx                             09/03/04   F                                    2,659                          2,493                                94%                                      35                   31
117        xxxxxxxxxxx                             09/13/04   M                                    3,319                          2,934                                88%                                      33                   26
118        xxxxxxxxxxx                             09/15/04   W                                    1,419                          1,380                                97%                                      30                   26
119        xxxxxxxxxxx                             09/18/04   S                                    2,263                          2,162                                96%                                      34                   28
120        xxxxxxxxxxx                             09/21/04   T                                    2,767                          2,745                                99%                                      40                   32
                                          TOTALS                                           98,397                           95,435                                                              1,656                        1,371




                                                                                 23
City Letter Carrier Operations -                                                              DR-AR-05-014
 San Diego District



                                               APPENDIX B

                  PROJECTION OF “3996 AUDIT” RESULTS OVER
                            FIVE-MONTH PERIOD
                                                                                          Projected Hours
                                               95 Percent      95 Percent                 Not Justified by
                          Projection of        Confidence      Confidence                   Workload in
                           Unjustified           Interval        Interval                   Five-Month
                           Time (Point            Lower           Upper                     Period (May
                            Estimate)           Bound in        Bound in       Relative       Through
       Location            in Minutes           Minutes         Minutes       Precision     Sept. 2004)
xxxxxxxxxx                          170,498        141,062         199,933        17.3%              2,842

xxxxxxx                              75,495         53,523          97,467        29.1%              1,258


xxxxxxxxxxxx                         32,499         10,662          54,337        67.2%                542


xxxxxxxxx                           101,676         72,433         130,919        28.8%              1,695

xxxxxxx                              26,105         15,824          36,385        39.4%                435


xxxxxxxxxxx                         199,371        143,673         255,069        27.9%              3,323

                                                     Overall
San Diego:                         3,230,100      1,060,518       5,399,684         67%             53,835
xxxxxxxxxxxx




                                                       24
City Letter Carrier Operations -                                              DR-AR-05-014
 San Diego District


                   APPENDIX C. TECHNICAL DOCUMENTATION

Sampling

An objective of the audit was to quantify the amount of unjustified time in the San Diego
District in the Pacific Area. In support of this objective, the audit team employed a
two-stage sample of carrier time, selecting delivery units and delivery days randomly.
The sample design allows statistical projection of the minutes of unjustified time total,
unjustified office time, unjustified street time, and unexplained unjustified time.

Audit Universe

The team judgmentally selected the San Diego District, which had xxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxxxxxx The audit universe consisted of 127 working days from May 1
through September 30, 2004.

Sample Design and Modifications

We chose a two-stage sample design, with simple random selection of delivery units at
the first stage and a simple random sample of delivery days at the second stage. We
examined all delivery routes on the days selected. We had no information regarding the
variability we might see between delivery units. To size the sample, we considered
each delivery unit and delivery day combination as a universe element (a total of
4,064 unit days). We selected a desired confidence level of 95 percent and, for sample
size calculation purposes, a desired relative precision for a variable estimate of
20 percent. We considered coefficient of variation (CV) values of 100 percent and
125 percent. With application of the finite population correction, these CVs generated
sample sizes of 95 to 145, respectively. We chose to use a total of 120 delivery unit
days, randomly selecting six delivery units at the first stage and then randomly selecting
20 delivery days at each of the units.

Results

The value assigned to each delivery unit day is the total number of unjustified minutes in
a particular category. Using the total time value as the variable, we applied the
equations for the projection of a variable in a two-stage sample using the equations
from Chapter 9 of Scheaffer, Mendenhall, and Ott, Elementary Survey Sampling,
c. 1996. The results for total unjustified time are summarized in Appendix B.




                                            25
City Letter Carrier Operations -                                                                    DR-AR-05-014
 San Diego District


                                               APPENDIX D

                OIG CALCULATION OF UNRECOVERABLE COSTS
As shown in the table below, the OIG identified $1,963,36218 in unjustified
(unrecoverable) costs. The OIG calculated the unjustified costs through a random
sample analysis of PS Form 3996. The “3996 audit” process is an assessment of
individual route time greater than eight hours. The audit process cannot differentiate
between time that is truly unjustified and time that is simply not supported by
documentation. The Total Variance Factor in the Postal Service’s WebEIS shows the
difference between projected workhours for the workload identified in DOIS and the
actual workhours used by the carriers. Pacific Area Delivery management and the OIG
agreed to 50 percent of the WebEIS variance from May 1 through September 30, 2004,
as the unrecoverable costs, which amounts to $1,423,935.19


                                           Workhours             Labor Rate               Cost
       Unjustified workhours                    53,835                $36.47             $1,963,362
       identified by the OIG
       from May 1 through
       September 30, 2004,
       for 32 delivery facilities
       with 30-50 routes
       Workhours using                             78,088                $36.47          $2,847,869
       Total Variance
       Factor in WebEIS for
        May 1 through
       September 30, 2004,
       for 32 delivery facilities
       with 30-50 routes
       Unrecoverable                               39,044                $36.47          $1,423,935
       workhours identified by
       using 50 percent of
       WebEIS variance




18
   Postal Service Finance memorandum dated March 5, 2004, shows the national average labor rate for city letter
carriers in FY 2004 was $36.47. The 53,835 hours multiplied by $36.47 equals $1,963,362.
19
   Postal Service Finance memorandum dated March 5, 2004, shows the national average labor rate for city letter
carriers in FY 2004 was $36.47. The 39,044 hours multiplied by $36.47 equals $1,423,935.



                                                        26
City Letter Carrier Operations -                        DR-AR-05-014
 San Diego District


                    APPENDIX E. MANAGEMENT’S COMMENTS




                                   27
City Letter Carrier Operations -        DR-AR-05-014
 San Diego District




                                   28
City Letter Carrier Operations -        DR-AR-05-014
 San Diego District




                                   29
City Letter Carrier Operations -        DR-AR-05-014
 San Diego District




                                   30
City Letter Carrier Operations -        DR-AR-05-014
 San Diego District




                                   31
City Letter Carrier Operations -        DR-AR-05-014
 San Diego District




                                   32
